                                                2 0 0 4



S e m i a n n u a l       R e p o r t

Office of the Inspector General




                 April 1 ~ September 30, 2004




  T e n n e s s e e Va l l e y A u t h o r i t y
The Office of the Inspector General
(OIG) is an independent organization
charged with reporting to the
Tennessee Valley Authority (TVA)
Board of Directors and Congress on
the overall efficiency, effectiveness,
and economy of TVA programs and
operations. The OIG meets this
responsibility by conducting audits,
investigations, and other reviews.

The OIG focuses on the prevention,
identification, and elimination of
(1) waste, fraud, and abuse; (2) viola-
tions of laws, rules, or regulations;
and (3) inefficiencies in TVA programs
and operations.

If you want to report any matter
involving TVA programs, operations,
or employees, you should call the
OIG Hotline or write the Inspector
General’s office at the address or
number listed on the back cover.
                                    Tennessee Valley Authority
                                   Office of the Inspector General



          Message From the Inspector General

          This semiannual report summarizes the work of the OIG from April 1 through September 30, 2004. The
audits, investigations, and inspections highlighted in this report illustrate our continuing commitment to helping
TVA promote economy, efficiency, and effectiveness in its programs and operations.

         During the past six months, our audits, investigations, and inspections continued to add to TVA’s
“bottom line.” We identified over $4.8 million in potential savings or recoveries, and TVA used our findings from
this and prior reporting periods to save over $7 million. The amount of realized savings illustrates how effectively
the OIG and TVA work together both in identifying potential problems and resolving those problems. I appreciate
the cooperation and support we receive from the TVA Board, management, and employees in our work.

         As part of our efforts to focus our resources on major areas, we increased our manpower devoted to the
Browns Ferry Nuclear Plant (BFN) Unit 1 Restart Project. Audit, investigation, and inspection resources are being
dedicated to BFN to conduct reviews designed to promote cost control and to identify on a proactive basis
fraud, waste, or abuse that may be occurring. We also have numerous projects underway to ensure integrity in
our contract administration process and to look for cost savings opportunities. As an example, during this
reporting period we determined, among other things, that a contractor providing engineering services for the BFN
Unit 1 restart had overbilled TVA $602,611. We will continue to examine the major contracts and
subcontracts to ensure TVA is getting the benefit of its bargain.

         Finally, I note that the OIG is losing one of its founding fathers. G. Donald Hickman, one of the first
people to start this office in 1986, has retired. Mr. Hickman was the Acting Inspector General (IG) before my
appointment and the Assistant Inspector General for Investigations for ten years. He has been heralded through-
out the IG community for his work––in 2000 he received an Award of Excellence from the IG community, and this
year he received an Individual Accomplishment Award for his work on the OIG investigation peer review process.
Mr. Hickman’s contributions to both the IG community and to the TVA OIG will be long remembered. He has our
best wishes for a well-deserved retirement.

        It is truly an honor to work alongside the many dedicated men and women who pull together to make
TVA successful. They are aided, as are we, by the continued leadership and support of the TVA Board and the
United States Congress. Together we can build a better TVA for future generations.




                                                                                                 Richard W. Moore
                                                                                                 Inspector General
                                                                                                 October 29, 2004
                                                                         Ta b l e o f C o n t e n t s



Executive Summary                                                                                    1

TVA Profile                                                                                          3

Office of the Inspector General                                                                      4

Special Features                                                                                    10

Audits                                                                                              15

Investigations                                                                                      23

Inspections                                                                                         29

Legislation and Regulations                                                                         31




Appendices                                                                                          32

Appendix 1 Index of Reporting Requirements Under the Inspector General Act                          33

Appendix 2 Audit Reports Issued                                                                     34

Appendix 3 Audit Reports Issued With Questioned Costs and Recommendations for Better Use of Funds   37

Appendix 4 Audit Reports With Corrective Actions Pending                                            39

Appendix 5 Investigative Referrals and Prosecutive Results                                          42




Highlights                                                                                          43




TVA Office of the Inspector General
Executive Summary



During this reporting period, we continued to support TVA by conducting objective
audits, investigations, and inspections. In accordance with our mission, our reviews are
designed to promote economy, effectiveness, and efficiency while detecting and
preventing fraud, waste, and abuse. In total, we identified over $4.8 million in
recoveries, fines/penalties, potential savings, questioned costs, or funds which could be
put to better use, as outlined in the chart below.


                                STATISTICAL HIGHLIGHTS
                      April 1 ~ September 30, 2004
                    Audit Reports Issued                               34
                    Questioned Costs                           $1,763,000
                    Funds Recovered/Disallowed                 $4,061,000
                    Funds Put to Better Use                    $1,471,000
                    Funds Released by TVA                      $7,196,000
                    Investigations Opened                             118
                    Investigations Closed                             163
                    Fines/Recoveries/Restitution/Savings       $1,359,349
                    Criminal Actions                                   12
                    Administrative Actions (No. of Subjects)           30
                    Inspections Completed                               8
                    Cost Savings                                 $226,000


Our 34 audits and 8 other audit-related projects during this reporting period resulted in
significant questioned costs and the identification of areas for improvement. Highlights
for this semiannual period included the identification of (1) almost $1.8 million in
questioned costs and almost $1.5 million in funds which could be put to better use
from our contract audits, (2) needed improvements in the area of information
technology (IT) security, (3) recommended improvements in future power generation
decisions, and (4) enhanced controls for TVA’s hospitality program. We also noted
many positives in TVA activities. For example, we found no instances where TVA’s
external auditor did not comply with Government Auditing Standards in all material
respects, and we determined TVA’s IT security program structure is adequate to meet
federal requirements and TVA is making substantial progress in correcting IT security
deficiencies.




page 1                                                             April 1 ~ September 30, 2004
                                                            Executive Summary



We also devoted additional resources to the restart of BFN Unit 1. Because of the
significance and cost of the restart effort, we are committing audit, investigation, and
inspection resources to ensure integrity in our contract administration process and to
identify potential cost savings at BFN.

We continued our focus on developing a comprehensive approach to detecting and
preventing fraud and waste. Our actions, which complement the Sarbanes-Oxley Act,
which does not generally apply to TVA, include creating a data mining program and an
intelligence and analysis unit and initiating training to conduct fraud risk assessments
throughout TVA.

Investigative highlights include (1) recoveries, savings, and fines/penalties which exceed
$1.3 million, (2) per diem and workers’ compensation fraud cases, (3) cases involving
problems with coal sampling, and (4) credit card abuse cases, including purchasing
cards, gas cards, and travel cards. For example, one TVA employee used his TVA
purchasing card to purchase overpriced janitorial supplies in quantities far in excess of
what TVA needed. In return, he received about
$14,500 in store gift cards and merchandise. We                          Definitions
estimated TVA’s loss to be between $200,000 and               Q u e s t i o n e d C o s t s - A cost that
                                                              is unnecessary, unreasonable,
$400,000.                                                     unsupported, or an alleged
                                                              violation of law, regulation,
Our Inspections unit completed eight projects which           contract, etc.
                                                              Unsupported Costs - A
identified over $226,000 in cost savings and identified       questioned cost that is not
opportunities for improved program operations.                supported by adequate
                                                              documentation.
Highlights include (1) a contract review which identified     F u n d s P u t t o B e t t e r U s e - Funds
                                                              that could be used more
$204,229 in overbillings and (2) a review of one
                                                              efficiently by implementing
contractor under TVA’s energy right® program. The             recommended actions.
                                                              D i s a l l o w e d C o s t s - A cost that
latter review found the contractor engaged in various
                                                              management agrees should not
improper schemes and identified numerous                      be charged to TVA.

opportunities for improvement in TVA’s internal controls
over the program.




TVA Office of the Inspector General                                                       page 2
T VA P r o f i l e



TVA was created during 1933. President Franklin Roosevelt asked Congress to create
“a corporation clothed with the power of government but possessed of the flexibility
             and initiative of a private enterprise.” On May 18, 1933, Congress passed
             the TVA Act, creating TVA as a federal corporation whose primary
             purposes are to provide flood control, navigation, and electric power in the
             Tennessee Valley region.

             Today TVA is the nation’s largest public power company. TVA’s power
             facilities include 11 fossil plants, 29 hydroelectric dams, 3 nuclear plants,
             6 combustion turbine plants, a pumped-storage facility, and 17,000 miles
of transmission lines. TVA also produces energy from three renewable sources––sun,
wind, and methane gas from waste. The TVA service area covers 80,000 square miles
in the Southeastern United States, including almost all of Tennessee and parts of
Mississippi, Kentucky, Alabama, Georgia, North Carolina, and Virginia. By providing
wholesale power to 158 municipal and cooperative power distributors, and by directly
serving 62 large industries and government installations in the Valley, TVA supplies the
energy needs of 8.5 million people.

As a regional development agency, TVA not only supplies affordable, reliable power, but
also supports a thriving river system and stimulates sustainable economic development
in the public interest. TVA manages the nation’s fifth largest river system. TVA dams
are part of a totally integrated resource management system where each dam operates
in relationship to the others for multiple purposes and public benefits, including
flooding, maintaining navigation, providing recreational opportunities, and protecting
water quality in the 41,000-square-mile watershed.

TVA contributes to the Valley economy chiefly by keeping power rates competitive,
which helps attract and retain industries that provide quality jobs in the region. TVA
also helps communities promote sustainable economic development by providing
assistance in job creation and retention and productivity improvements via capital
investment, support of business incubators, specialized technical services and advice,
and recruitment for new and existing industries.




page 3                                                           April 1 ~ September 30, 2004
                                       Office of the Inspector General



Office Authority

Created by the TVA Board of Directors during 1985, the TVA OIG became statutory
under the IG Act Amendments of 1988. The authority to appoint the TVA IG was
transferred to the President in November 2000 by Public Law No. 106–422.

The IG is responsible for conducting audits and investigations relating to TVA programs
and operations while keeping the TVA Board and Congress fully and currently informed
about problems and deficiencies. The TVA IG is independent of TVA management and
subject only to the general supervision of the TVA Board. The IG’s authority includes
conducting audits or investigations the IG deems necessary or desirable, issuing
subpoenas, administering oaths, and granting confidentiality to individuals who provide
information to the OIG.

Organization

The OIG’s primary location is in the TVA headquarters in Knoxville, Tennessee. To
obtain broader coverage throughout the Valley, the OIG also has an Inspections unit
located in Chattanooga, Tennessee, and one-person offices at BFN in Alabama and in
Mayfield, Kentucky. During this reporting period, the OIG consisted of three primary
components: Audits, Investigations, and Inspections.




TVA Office of the Inspector General                                                 page 4
Office of the Inspector General



AUDIT OPERATIONS

Audit Operations (AO) conducts and/or supervises comprehensive financial and
                performance audits of TVA programs and operations and makes
                recommendations to ensure that program objectives and operational
                functions are achieved effectively and efficiently. AO develops an annual
                audit plan to enable effective allocations of audit resources to issues,
                programs, operations, and activities that expose TVA to significant risks
                and/or vulnerabilities.

AO consists of three departments––Contract Audits, Financial/Operational Audits, and
IT Audits.

 Contract Audits has lead responsibility for contract compliance and preaward audits.

   In addition, this group performs reviews of TVA contracting processes and provides
   claims assistance and litigation support.

 Financial/Operational Audits has lead responsibility for (1) oversight of TVA’s financial

   statement audits performed by TVA’s external auditor; (2) reviews of TVA’s internal
   controls related to financial reporting, operational efficiency, and compliance with
   laws and regulations; and (3) operational reviews to assess the results and economy
   and efficiency of TVA programs.

 IT Audits has lead responsibility for audits relating to the security of TVA’s IT

   infrastructure, application controls, and general controls associated with TVA
   systems. This group also performs operational reviews of the effectiveness of
   IT-related functions. In addition to its audit mission, IT Audits is responsible for
   developing and supporting an independent OIG computer network.


AO refers possible fraud or other wrongdoing by contractors, employees, or others
identified during its audits to Investigative Operations for further review. As needed, AO
also provides data mining and other assistance to, or performs joint projects with, the
Inspections and Investigations units.




page 5                                                            April 1 ~ September 30, 2004
                                         Office of the Inspector General



INVESTIGATIVE OPERATIONS

Investigative Operations (IO) conducts and coordinates investigative activity related to
fraud, waste, and abuse in TVA programs and operations. The activities investigated
include possible wrongdoing by contractors, employees, economic
development loan recipients, and others. IO maintains liaisons with
federal and state prosecutors, and reports to the Department of Justice
whenever the OIG has reasonable grounds to believe there has been a
violation of federal criminal law. IO works with other investigative
agencies and organizations on special projects and assignments,
including interagency law enforcement task forces on terrorism, the
environment, and health care.




TVA Office of the Inspector General                                                 page 6
Office of the Inspector General



INSPECTIONS

The Inspections unit, which is staffed by auditors and investigators, was formed at the
beginning of fiscal year (FY) 2004. Inspections provides flexibility to conduct quick hit
policy and program evaluations to promote economy and efficiency in the management
and administration of TVA programs and to prevent and detect fraud, waste, and
abuse. In accordance with the Quality Standards for Inspections, the objectives of
inspections include providing a source of factual and analytical information, monitoring
compliance, measuring performance, assessing the efficiency and effectiveness of
operations, and/or conducting inquiries into allegations of fraud, waste, abuse, and
mismanagement.

During this period, Charles A. Kandt, Assistant Inspector General for Inspections and a
reservist, was serving on active duty in the Middle East. Mr. Kandt is a Lieutenant
Colonel in the Army Reserves and has been a JAG officer for 23 years. During his
absence, Ben R. Wagner, Assistant Inspector General for Audits, has served a dual role
in heading up both Audits and Inspections.




page 7                                                          April 1 ~ September 30, 2004
                                        Office of the Inspector General



NEW ASSISTANT INSPECTOR GENERAL FOR ADMINISTRATION AND GOVERNMENT
RELATIONS

During this reporting period, we created a new position, Assistant Inspector General for
Administration and Government Relations (AIGAGR), to oversee our administrative
function and make us more cognizant of what is occurring in the congressional area.
Ronald Wise is our first AIGAGR. Before becoming the AIGAGR,
Mr. Wise was an Assistant United States Attorney in the Southern
District of Alabama. Mr. Wise’s background also includes being a trial
attorney in the General Counsel’s Office, United States Navy.

By creating this new position, we will be able to enhance office
administration, staffing and retention practices, and develop working
relationships with congressional members and ensure we keep them informed of our
activities and are responsive to their concerns. Mr. Wise will be coordinating with
various stakeholders, including members of the TVA Caucus and TVA’s Government
Relations organization.

NEW ASSISTANT INSPECTOR GENERAL FOR INVESTIGATIONS

G. Donald Hickman, Assistant Inspector General for Investigations for the past ten
years, retired at the end of this reporting period. He will be replaced by Charles A.
Kandt, who will serve as both the Assistant Inspector General for Inspections and the
Assistant Inspector General for Investigations. Before coming to the
OIG, Mr. Kandt was an Assistant United States Attorney for the
Southern District of Alabama, where he worked with law enforcement
agencies through the Organized Crime Drug Enforcement Task Force
and handled criminal appeals.




TVA Office of the Inspector General                                                   page 8
      Office of the Inspector General




                                                             Inspector General




                                   Legal Counsel




                                                                                                                     Assistant Inspector
           Assistant Inspector                  Assistant Inspector              Assistant Inspector                       General
                 General                              General                          General                        (Administration &
                 (Audits)                          (Inspections)                   (Investigations)                     Government
                                                                                                                         Relations)

                        Contract Audits
                                                                Evaluations &                Investigations                            Human
                          Manager
Audit Quality                                                      Special                      Manager                               Resource
 Manager                                                          Inquiries                                                           Manager
                           Financial/                             Manager
                          Operational
                                                                                             Investigations
  Project               Audits Manager
                                                               Investigations                   Manager
  Manager
   (BFN 1                                                         Manager
                          Information
  Restart)                Technology
                        Audits Manager
                                                               Contacts

      Inspector General                                                          Contract Audits Manager
      Richard W. Moore . . . . . . . . . . .(865) 632-4120                       David P. Wheeler . . . . . . . . . . . .(865) 632-4770

      Legal Counsel                                                              Financial/Operational Audits Manager
      Richard P. Levi . . . . . . . . . . . . . .(865) 632-6197                  Greg C. Jaynes . . . . . . . . . . . . . .(865) 632-7023

      OIG Media Relations                                                        Information Technology Audits Manager
      Anne B. Ferrell . . . . . . . . . . . . . .(865) 632-3505                  Jill M. Matthews . . . . . . . . . . . . .(865) 632-4730

      Assistant Inspector General (Audits)                                       Evaluations & Special Inquiries Manager
      Ben R. Wagner . . . . . . . . . . . . . .(865) 632-2272                    R. Darryl Bryant . . . . . . . . . . . . .(423) 751-4415

      Assistant Inspector General (Inspections)                                  Investigations Manager
      Charles A. Kandt . . . . . . . . . . . .(423) 751-4420                     Michael G. Duncan . . . . . . . . . . .(423) 751-7821

      Assistant Inspector General (Investigations)                               Investigations Manager
      Charles A. Kandt . . . . . . . . . . . .(423) 751-4420                     Curtis D. Phillips . . . . . . . . . . . . .(865) 632-2584

      Assistant Inspector General (Administration                                Investigations Manager
      & Government Relations)                                                    C. Dale Hamilton . . . . . . . . . . . .(865) 632-3956
      Ronald Wise . . . . . . . . . . . . . . . .(865) 632-4752
                                                                                 Human Resource Manager
      Audit Quality Manager                                                      Kay T. Myers . . . . . . . . . . . . . . . .(865) 632-7718
      Paul E. Ivie . . . . . . . . . . . . . . . . .(865) 632-3891

      Project Manager (BFN 1 Restart)
      Thomas B. Johnson . . . . . . . . . .(865) 632-6256

                Hotline to report fraud, waste, and abuse: 1-800-323-3835
                              OIG website: http://oig.tva.gov

      page 9                                                                                       April 1 ~ September 30, 2004
                                                                   Special Features



OIG Increases Oversight of the BFN Unit 1 Restart Project

In May 2002, the TVA Board of Directors approved a plan to return BFN Unit 1 to
service. BFN Unit 1, which began commercial operation on August 1, 1974, has not
operated since 1985. However, a study conducted by TVA during 2001 determined
BFN Unit 1 could be returned to service “safely and economically.” TVA estimated the
restart project would cost $1.8 billion over a five-year period.

To complete the restart of BFN Unit 1, TVA contracted with Bechtel Power Corporation
(for design engineering services) and Stone and Webster Construction, Inc. (for
construction modifications). TVA has estimated about 4.5 million workhours will be
required to complete the engineering scope of work, and about 12 million workhours
will be required to complete the modifications. Additionally, General
Electric will be providing equipment and services needed for the
modifications.

As a result of the significance of this project, the OIG has increased its
oversight effort. We have permanently assigned an auditor and an
investigator to the BFN location in Decatur, Alabama, and have
completed a comprehensive survey to identify and prioritize areas to
concentrate our reviews. We are using audit, inspection, and
investigative resources to conduct reviews designed to promote cost control and to
identify on a proactive basis any fraud, waste, or abuse. We also have many projects
underway to ensure integrity in our contract administration processes and to look for
cost savings opportunities.

Our efforts in connection with the BFN restart during the past six months have included
the following:

 We determined a contractor providing engineering services for the recovery of BFN

   Unit 1 overbilled TVA $602,611. Specifically, the contractor billed TVA for (1) certain
   home office labor that was already recovered in its overhead rate, (2) unsupported




TVA Office of the Inspector General                                                page 10
Special Features



   and ineligible costs and fees related to a subcontract agreement with an affiliated
   company, (3) ineligible and unsupported computer charges, (4) casual employee
   labor, and (5) other direct costs that had already been recovered through a separate
   billing rate. TVA management is reviewing the audit issues to determine the actions
   it should take. Additionally, we have ongoing contract audits on the major
   contractors at BFN. We are reviewing subcontractors as well.

 Our audit of BFN contractors’ willingness to report nuclear safety and quality issues

   showed they generally felt free to raise nuclear safety and quality issues through
   some avenue.

 Our inspection of the Consignment Inventory Payment controls determined that

   controls could be strengthened by (1) updating the current guidelines, (2) providing
   additional training for those responsible for controls, (3) strengthening the process of
   maintaining and verifying pricing information, (4) initiating management review of
   usage reports to ensure reasonableness and appropriateness of materials
   purchased, and (5) establishing controls surrounding the materials requisition forms.
   TVA management agreed to implement all the recommendations.

 We closed six investigations during this reporting period. While most of those

   investigations did not find wrongdoing, in one per diem investigation we determined
   a contract employee filed a certification containing a false statement in order to
   obtain $12,332 in per diem. The contract employee died prior to completion of the
   investigation, and management recovered the payments from the contractor.


We also had two cases with indictments related to BFN.

 In a joint investigation with the United States Postal Service, we found an employee

                     at BFN misused his TVA purchasing card by accepting kickbacks
                     to purchase overpriced janitorial supplies in quantities far in excess
                     of what TVA needed. In return, the former employee received
                     about $14,500 in store gift cards and merchandise. The former
                     employee and a co-conspirator have been indicted on 21 counts,




page 11                                                         April 1 ~ September 30, 2004
                                                                 Special Features



   including conspiracy and wire fraud. The loss to TVA is estimated to be between
   $200,000 and $400,000.

 In the other case, a contract employee at BFN and members of her family used a

   TVA Wright Express Card for personal purchases totaling about $10,000. The
   contract employee was indicted on four counts of felony theft.


OIG Works With TVA on Initiative to Detect and Prevent Fraud

During this reporting period, we continued our focus on developing a
comprehensive approach to detecting and preventing fraud and waste.
In addition to assigning investigators as “road agents” to serve as key
contacts at specific TVA facilities and referring more administrative
allegations to management for resolution, as we reported in our last
semiannual, we expanded our program in several areas.

While TVA management has the ultimate responsibility for fraud detection and
prevention, our goal is to help TVA improve their antifraud processes and internal
controls, while at the same time maintaining an effective oversight process and
detecting and seeking prosecution of fraud where it exists. These actions complement
the assessment of internal control over financial reporting by TVA management,
including controls related to the prevention, identification, and detection of fraud. We
will be working closely with TVA management in this initiative, and we expect that over
time this program will produce significant results and will serve as a strong deterrent
against fraud.


BACKGROUND

In response to a series of corporate scandals, Congress enacted the Sarbanes-Oxley
Act in 2002. That law and the implementing regulations are intended to provide greater
transparency in corporate accounting and reporting, provide greater accountability by
making board members and executives personally responsible for financial statements,
and place greater emphasis and structure around efforts to prevent, detect, investigate




TVA Office of the Inspector General                                                page 12
Special Features



and remediate fraud and misconduct. Under this law, management is responsible for
establishing, validating, and monitoring effective internal controls over fraud. Although
TVA generally is not covered by the terms of Sarbanes-Oxley, it has determined that
adopting procedures consistent with certain provisions of that Act will better assure
any potential TVA investors and other key stakeholders that TVA is providing complete,
accurate, and timely information about TVA.

The elements of a strong program to detect and deter fraud include sponsorship by
upper-level management, assessments to identify fraud risks and controls which
mitigate those risks, evaluations of the effectiveness of those controls, addressing
residual risks, responding to suspicions of fraud, and taking remedial action to prevent
recurrences where fraud is identified. TVA has taken initial steps to establish such a
program. For example, the TVA Board has adopted a Code of Ethics and created a
Disclosure Control Committee, and TVA has a fairly rigorous program to conduct
background investigations on key managers and Nuclear employees. In addition, we
have agreed to publicize the OIG Hotline as an avenue to report suspected financial and
other types of fraud, and the OIG has a documented process for receiving and
investigating complaints.

We believe, however, that improvements can be made in raising TVA’s awareness of
fraud prevention and detection. TVA also does not have a formal fraud risk assessment
program. Accordingly, we will be working with TVA management to develop and
implement more effective controls over fraud.


PROGRAM ELEMENTS

The following outlines some of the elements of the fraud prevention and detection
program we are implementing.

DATA MINING

We are developing a data mining program, which will use computer analysis and other
automated techniques to bring relationships to the surface in large data sets that may
assist in identifying (1) errors, (2) irregularities, (3) fraud opportunities, and (4) indicators




page 13                                                              April 1 ~ September 30, 2004
                                                                  Special Features



of fraud in transactional data. We have hired a forensic analyst, obtained relevant
software, and begun running data mining programs. For example, we reviewed TVA’s
automated credit card records to identify suspicious charges
which likely could be personal––e.g, charges to jewelry, toy,
sham vendors (who sell products at four or five times market
value), and similar stores or internet outlets––and to look for
purchasing trends that appear questionable when compared to
historical purchases.

INTELLIGENCE AND ANALYSIS UNIT

We have created an Intelligence and Analysis Unit to collect, analyze, and disseminate
information on ongoing and/or possible emerging criminal activity affecting TVA, to
determine the identities of persons potentially involved in criminal activities, and to assist
investigators in understanding complex scenarios and large amounts of seemingly
unrelated data. This unit currently is staffed by two investigators. Their functions
include closely coordinating with OIG Audits to identify potential areas of fraud and
compiling leads from agents across the Valley to identify trends.

FRAUD RISK ASSESSMENTS

We will be working with TVA management to conduct fraud risk assessments through-
out TVA. A fraud risk assessment is a process for management and business process
owners to identify and analyze fraud risk factors that may be common to general
business practices and also specific to the organization and its operations. This
process will involve evaluating fraud risk factors, identifying possible fraud schemes and
scenarios, prioritizing identified fraud risks, and evaluating whether mitigating controls
exist and assessing whether they are effective.

We are sponsoring training on conducting risk assessments and will facilitate
assessments in various key business units. We intend for this to be an ongoing
process to assist TVA in effectively ensuring there are adequate antifraud controls
across all TVA business units.




TVA Office of the Inspector General                                                   page 14
Audits



Summary of Representative Audits

Audits are initiated from (1) the OIG annual workplan, (2) additional issues identified by
the OIG subsequent to the annual workplan, (3) issues identified by cooperative efforts
with TVA management, and (4) concerns raised by TVA management or other stake-
holders. During this reporting period, we completed 34 audits which identified almost
$1.8 million in questioned costs and almost $1.5 million in funds which could be put to
better use. In addition, management used the results of our preaward audits in this and
prior reporting periods to save $7.2 million. We also identified numerous opportunities
for TVA to improve program operations. Our audits included (1) pre- and postaward
contract audits, (2) other financial-related audits, (3) IT reviews, and (4) operational
audits.


TVA USES PREAWARD CONTRACT AUDITS TO SAVE ALMOST $7.2 MILLION

During this reporting period, TVA management successfully negotiated almost
$7.2 million in savings as a result of audits issued during this and previous reporting
periods. We completed three preaward audits in this reporting period that identified
almost $1.5 million in potential savings opportunities. Highlights of the preaward audits
follow.

 We reviewed the cost proposals submitted by two contractors to provide engineer-

          ing support services. We determined one contractor’s proposed cost recovery
          rates were overstated and estimated TVA would save almost $1.5 million over
          the planned 5-year contract term by negotiating a reduction in the rates to elim-
          inate the overstated costs. We determined the second contractor’s proposal
          was fairly stated except for several labor rate ranges. TVA management used
   our audit results to negotiate better pricing terms with the contractors.

 We assessed the effect on a contractor’s indirect cost recovery rates if TVA

   (1) changed the contractor from staff augmentation services to managed task
   services and (2) allowed a fringe benefit rate to be added to the contract. TVA
   management used our audit findings to negotiate new contract rates.



page 15                                                           April 1 ~ September 30, 2004
                                                                                Audits



CONTRACT COMPLIANCE AUDITS IDENTIFY ALMOST $1.8 MILLION IN
QUESTIONED COSTS

During this reporting period, we completed ten contract compliance-related audits that
identified almost $1.8 million in ineligible and unsupported costs. Management
generally agreed with our findings and has taken or plans to take corrective action.
Highlights of some of the more significant audits follow.

 We reviewed the costs billed to TVA by a contractor for administration of TVA’s pre-

   ferred provider health plan. We determined TVA had not been paid its share
   of the contractor’s 1999 hospital audit recoveries. The contractor agreed
   with our finding and refunded $532,194 to TVA to cover the amount due
   plus accrued interest. We also determined TVA was due an additional
   $63,000 because the contractor had withheld certain fees it was not
   entitled to. TVA subsequently recovered this amount from the contractor.

 We reviewed four contracts TVA had with a contractor for the purchase of

   sootblower equipment and replacement parts. We determined TVA had been over-
   billed about $246,000 under the two replacement parts contracts because the
   contractor had not complied with the contract’s price change provisions and had
   used some incorrect unit prices. We also found TVA had inadequate contract
   documentation for the two equipment contracts which prevented us from expressing
   an opinion on the costs that had been billed to TVA. TVA management agreed with
   our findings and plans to (1) recover the overbilled costs and (2) assemble an
   equipment contract with specific workscope and pricing terms.

 We audited the costs billed by a contractor for providing flue gas desulfurization

   equipment, related engineering services, and other scrubber related work for TVA’s
   fossil plants. We determined the contractor had billed TVA in accordance with the
   contract terms except for about $63,000 related to (1) license fees it had not yet
   incurred, (2) miscellaneous errors on travel vouchers and time charges,
   (3) mathematical errors on invoices, and (4) unallowable entertainment expenses.




TVA Office of the Inspector General                                                 page 16
Audits



   The contractor provided a $25,500 credit for the license fees, and TVA management
   plans to recover the remaining overbillings.

 We reviewed the contract termination claim filed by a subcontractor providing

   support for TVA’s flue gas desulfurization work. We found the subcontractor’s claim
   was not supported by actual costs. TVA management used the results of our audit
   to negotiate a settlement agreement that saved about $80,000.

 We reviewed a claim filed by a contractor for the termination of a fixed-price contract

   it had with TVA for the design and supply of a crystallizer system for the Columbus
   Regenesys Project. We determined the contractor’s claim was overstated by
   $82,075 due to unsupported or ineligible (1) direct job costs, (2) initial preparatory
   costs, (3) closeout costs, and (4) fee. TVA management is negotiating a settlement
   with the contractor.

FINANCIAL-RELATED REVIEWS FIND NO MATERIAL PROBLEMS

During this reporting period, we completed five financial-related audits, including two
audits of TVA’s external auditor’s reviews of interim financial information for the second
and third quarters of FY 2004. Highlights of the significant audits follow.

 We determined TVA generally had adequate internal controls over administration of

   Economic Development loan funds. However, we recommended several process
   improvements for management’s consideration and also recommended 11 loans
   which are considered uncollectible, totaling $5.29 million, be written off. TVA
   management is taking actions to implement our recommendations.

 In two audits related to bond issuance processes, we determined the internal control

   designs of (1) the bond issue and bond call processes and (2) classifying, recording,
   and disclosing bond issue and reacquisition costs were adequate to meet TVA’s
   business objectives and legal requirements. We noted, however, that TVA’s FY 2003
   financial statement disclosure contained an immaterial inaccuracy in that debt issue
   cost amortization was overstated by $11,043 for a recalled bond. Management
   agreed and implemented corrective actions.




page 17                                                          April 1 ~ September 30, 2004
                                                                                 Audits



 We found no instances where TVA’s external auditor’s reviews of TVA interim

   financial information for the second and third quarters of FY 2004 did not comply
   with Government Auditing Standards in all material respects, including required
   communications to appropriate parties.

TVA’S IT SECURITY PROGRAM MOVES FORWARD

During this reporting period, we completed six audits in the IT environment, including a
review of TVA’s progress in complying with federal security requirements. In this review,
we found TVA’s security program structure is adequate to meet federal requirements,
and TVA is making substantial progress in correcting
significant security deficiencies.

The remaining five reviews pertained to (1) security at two TVA
facilities (a generation plant and a transmission facility),
(2) internal controls for TVA’s fuels and generation data
systems, and (3) access termination processes for TVA’s supply chain system. We
found improvements were needed to address weaknesses in the following areas:

 Logical security controls designed to prevent unauthorized access to system

   programs and data. Various weaknesses at the facilities related to communication
   protocols, system vulnerabilities, security configurations, standard system security,
   authentication, and access management.

 Physical controls at the facilities designed to prevent security breaches and protect

   equipment and personnel from hazards.

 Internal controls in the generation data system related to completeness, accuracy,

   integrity, and usefulness of the data.

 Logical controls within the supply chain system related to access, documentation of

   access changes, and data accuracy, and within the fuels system related to unit cost
   calculations and managing user accounts.




TVA Office of the Inspector General                                                page 18
Audits



TVA management agreed with our findings and either has implemented or is in the
process of implementing corrective actions. Some of the corrective actions to address
our findings are part of an ongoing agency-wide effort to improve security controls in
TVA’s existing IT infrastructure.


PERFORMANCE REVIEWS
IMPROVED PROCEDURES RECOMMENDED FOR TVA’S HOSPITALITY PROGRAM

We reviewed the TVA hospitality program for FY 2003 to (1) determine the types and
level of expenditures for hospitality activities in TVA organizations and (2) assess
compliance with policies and procedures related to the hospitality program. TVA
believes its hospitality program is necessary and beneficial to its business interests and
to its communication with, support of, and recognition of employees. We determined:

 TVA hospitality and special event-related expenditures for FY 2003 totaled almost

   $6.5 million.

 TVA’s business practice on hospitality afforded TVA employees wide discretion to

   incur hospitality expenses. Accordingly, we found no instances of noncompliance.
   However, TVA’s practice of allowing TVA employees to engage in hospitality spending
   without more specific guidance increased the risk of harm to TVA’s reputation. TVA’s
   business practice on hospitality was revised by the Board on August 7, 2004, and a
   memorandum was issued to the TVA Management Committee to provide additional
   guidance and establish standard guidelines for TVA employees.

 TVA organizations did not accurately classify $754,281 in expenses in accordance

   with TVA accounting procedure.


Accordingly, we recommended TVA implement procedures to improve the reporting,
reviewing, and monitoring of hospitality expenditures across TVA organizations. In
addition, the new procedures should address each line organization’s responsibility to
appropriately document the justification for significant hospitality expenditures, including
a documented reputation risk analysis to ensure the activity would not likely be




page 19                                                          April 1 ~ September 30, 2004
                                                                                 Audits



perceived by a reasonable member of the public as an improper or inefficient use of
TVA resources. Management agreed with our recommendations and has implemented
or plans to implement corrective actions.

PROCESS IMPROVEMENTS RECOMMENDED FOR FUTURE POWER GENERATION
DECISIONS

Based on information obtained in a FY 2002 survey of TVA’s Power Supply Planning
(PSP) process, we reviewed the circumstances surrounding TVA’s decisions to build
and subsequently cancel construction of a 500 megawatt combined-cycle generating
plant. We determined that while many factors influenced TVA’s build and subsequent
cancellation decisions for the plant, those decisions were both consistent with and
reasonably supported by PSP data. However, we noted various circumstances that
warranted consideration of process improvements in future power generation decisions.
Accordingly, we recommended TVA (1) consider incorporating more risk management
techniques into the PSP process and (2) integrate the processes used by the various
organizations that contribute to PSP decision making to achieve more timely, systematic
scenario analyses. Management agreed with our recommendations and has taken or
plans to take actions to improve the process.

IMPROVEMENTS IN COMPLIANCE WITH HEARING CONSERVATION PROGRAM
(HCP) RECOMMENDED

TVA hearing loss claims have risen from $1.1 million in FY 1997 to $8.7 million in
FY 2002. TVA established the HCP “to prevent employee hearing loss from exposure
to high noise levels.” Our review of TVA’s HCP determined the HCP complied with
Occupational Safety and Health Administration regulations. However, in assessing
compliance with TVA’s own HCP, we noted (1) TVA had not identified and documented
employees who should be included in the HCP; (2) TVA had not performed personal
noise sampling representative of its workforce at some sites; (3) TVA did not have valid
sound level survey information for identifying high noise levels at some plants; (4) TVA
had not promulgated sufficient guidance regarding when dual hearing protection is
required; and (5) some TVA sites had not provided an appropriate variety of earplugs for
employees’ use. Additionally, TVA was not identifying some employees who have




TVA Office of the Inspector General                                                  page 20
Audits



experienced significant hearing loss. Management agreed with our recommendations
and has taken or plans to take appropriate corrective actions.

IMPROVEMENTS IN PUBLIC POWER INSTITUTE (PPI) PROGRAM MEASURES
RECOMMENDED

TVA established the PPI to help fulfill its commitment to protect natural resources and
                              the environment while working to provide low-cost,
                              reliable power by collaborating with others to develop,
                              demonstrate, and deploy new energy-related
                              technologies. Our review determined that (1) PPI’s
                              performance measures do not include a majority of the
                              work performed and (2) cost benefit measures should be
                              improved. We also found duplication in the work
performed by PPI and another TVA organization, and opportunity for improvements in
risk management techniques.

Accordingly, we recommended TVA (1) evaluate ways to improve program measures
through benchmarking and cost-benefit analysis, (2) continue efforts to consolidate the
PPI and the other TVA program, and (3) implement risk-management strategies when
pursuing large-scale research and development projects. Management agreed with our
recommendations and has taken or plans to take actions to improve the process.

NO MATERIAL ERRORS FOUND IN DEPARTMENT OF LABOR (DOL) WORKERS’
COMPENSATION PAYMENTS

TVA’s Workers’ Compensation Department helps prevent improper benefits and
reduces costs by validating charges received from the DOL Office of Workers’
Compensation Program (OWCP). Our review of the accuracy of the DOL billings to TVA
for approximately $60.5 million in workers’ compensation claims identified $7,886 in
overpayments which consisted of one incorrectly calculated schedule award and two
duplicate disability payments. We also recommended management determine whether
additional verification of DOL billings would be cost effective. Management agreed to




page 21                                                          April 1 ~ September 30, 2004
                                                                                 Audits



seek recovery of the identified overpayments and evaluate the appropriate extent of
monitoring.

TVA’S CONCERNS RESOLUTION PROGRAM (CRP) WORKING

TVA’s CRP was designed to help ensure all TVA and contractor employees supporting
TVA Nuclear (TVAN) “are free to express safety issues, concerns, or differing views to
TVAN management without fear of reprisal and all such concerns and issues are
investigated and resolved in a timely manner.” We performed three separate audits
which assessed the willingness of TVA employees and contractors to report nuclear
safety and quality issues through various avenues, including TVA’s CRP. The scope of
the three reviews corresponded to the (1) TVAN workforce, employees and contractors
with unescorted access to TVA’s nuclear facilities; (2) BFN Unit 1 restart project
contractors; and (3) Sequoyah Nuclear Plant (SQN) employees and contractors.

Overall, we determined the TVAN workforce and contractors at BFN Unit 1 and SQN
generally felt free to raise nuclear safety and quality issues through some avenue.




TVA Office of the Inspector General                                                  page 22
Investigations



Summary of Representative Investigations

During the past six months, we closed 163 investigations based, in part, on allegations
and concerns received from ratepayers, TVA management and employees,
governmental and congressional staffs, and OIG auditors. Our investigations, including
task force projects, resulted in (1) over $1.3 million in recoveries, projected savings, and
fines/penalties; (2) nine subjects indicted; and (3) three subjects convicted. Below we
discuss the President’s Council on Integrity and Efficiency (PCIE) award for and
retirement of the Assistant Inspector General for Investigations, results of our peer
review, and illustrative cases.


RETIRING ASSISTANT INSPECTOR GENERAL, INVESTIGATIONS, RECEIVED
PCIE AWARD

                     G. Donald Hickman, the Assistant Inspector General for
                     Investigations for the past ten years, has retired. Shortly before he
                     retired, we learned that Mr. Hickman was being recognized by his
                     peers for his accomplishments. The PCIE has chosen Mr. Hickman
                     to receive an Individual Accomplishment Award for his outstanding
                     effort and persistence in the development and implementation of a
federal OIG investigation peer review process, resulting in enhanced quality and
credibility of all OIG Investigation units. This is the second individual award given to
Mr. Hickman by the IG community––in 2000 he received an Award of Excellence from
the Executive Council on Integrity and Efficiency for his leadership and sustained
contributions to the law enforcement community. His contributions to the office will be
missed.


PEER REVIEW COMPLETED

The Department of Commerce Office of the Inspector General conducted a peer review
of our Investigations organization in accordance with the guidance issued by the PCIE.
(Each OIG with statutory law enforcement authority under the IG Act will undergo a peer
review every three years.)




page 23                                                          April 1 ~ September 30, 2004
                                                                   Investigations



On July 27, 2004, the Department of Commerce Inspector General issued a final report
finding the TVA OIG was in “full compliance,” the highest possible rating. More
specifically, that report concluded our system of internal safeguards and management
procedures in effect for the year ended February 1, 2004, was in full compliance with
the quality standards established by the PCIE and the United States Attorney General’s
Guidelines, and those safeguards and procedures provided reasonable assurance that
we are conforming with professional standards in the conduct of our investigations.

In a separate letter, also dated July 27, 2004, the Department of Commerce Inspector
General cited two noteworthy accomplishments. The noteworthy accomplishments
were that our system of documenting subject interviews included some innovative
methods, and we had an outstanding system for maintaining, updating, and
documenting agent training.


ILLUSTRATIVE CASES

Our cases during the past six months included fraud against TVA by TVA employees,
contractor employees, and workers’ compensation beneficiaries. We also closed
several cases involving coal purchases which helped TVA save over $400,000, and we
continued our support of various joint task forces. The following is a brief summary of
illustrative cases.

FRAUD

Cases involving fraud by TVA employees and contractor employees included the
following. (Three other cases were reported under the Special Features section about
BFN Unit 1 restart.)

 A Transmission/Power Supply foreman misused his Wright Express (WEX) credit card

   provided in TVA vehicles to purchase gasoline. The foreman used
   the WEX card to put gas in cars belonging to friends and people
   he did not know. He would double the amount of gas a person
   wanted in exchange for cash, i.e., the person paid him $10 cash in
   exchange for $20 in gas on the WEX card. He used several




TVA Office of the Inspector General                                               page 24
Investigations



  different WEX cards at various service stations in the Knoxville area. The amount of
  TVA’s loss was approximately $45,000. TVA terminated the foreman, who was
  indicted by a federal grand jury on June 16, 2004, and subsequently pled guilty.

 A TVA employee used her government travel card (1) for personal expenses,

                         including over $14,000 in cash advances, in violation of TVA
                         policy; (2) to purchase airline tickets costing over $3,000 for
                         personal travel for herself and other non-TVA employees
                         where those tickets were direct-billed to TVA; and (3) to rent
                         cars for personal use where those rental charges were
                         direct-billed to TVA. In addition, she misused leave. The
  employee resigned during our investigation, and the matter was referred for
  prosecutive consideration.

 A Fossil Power Group employee used his TVA travel card for personal charges,

  including three travel charges that were direct-billed to TVA. The employee
  reimbursed TVA for the personal expenses and was suspended for 14 days.

 During July 2004, a contract employee was indicted by a federal grand jury in the

  Northern District of Alabama on two counts of making false statements. The
  contractor submitted false statements in order to receive approximately $50,000 in
  per diem over a three-year period.

 A former contract employee entered TVA facilities after being terminated and

  submitted eight timesheets for payment. The contractor, not knowing the
  timesheets were false, paid the former employee and passed the cost to TVA. On
  May 6, 2004, the former employee pled guilty in state court to theft. He was
  granted pre-trial diversion and placed on unsupervised probation for one year. He
  made restitution to TVA in the amount of $5,344.




page 25                                                        April 1 ~ September 30, 2004
                                                                     Investigations



WORKERS’ COMPENSATION CASES

We had two reportable workers’ compensation cases during this period.

 In one case, a former TVA ironworker was indicted on four counts of making false

   statements to OWCP to receive workers’ compensation benefits to which
   he was not entitled. Our investigation showed the employee did not report
   that he derived income from operating an auto salvage business.

 In the other investigation, we found a fossil plant worker filed a false

   workers’ compensation claim. The worker, who claimed he was injured at
   work, admitted during an interview that he was in fact injured at home.
   Management terminated the employee, and the matter was referred for
   prosecutive consideration.

COAL CASES

Coal cases closed during this reporting period helped TVA save over $400,000, as
follows.

 We investigated an anonymous tip that a TVA coal contractor was manipulating coal

   samples for coal shipped to TVA. Train shipments were diverted, sampled, and
   tested by TVA. The testing identified coal quality problems. Subsequently, the
   contractor proposed using the coal as feedstock for synfuel. TVA management
   accepted the proposal which resulted in a gross savings of more than $442,000.
   The coal contractor also was penalized $14,037 for one train that did not meet coal
   quality specifications.




TVA Office of the Inspector General                                             page 26
Investigations



 TVA management discovered discrepancies between the Coal Quality Adjustment

   Reports (CQAR) at a fossil plant prepared by TVA and the vendor. Based on these
   discrepancies, a camera was installed and a TVA employee was videotaped not
                    properly preparing the coal samples. The improperly prepared
                    samples prevented accurate calculation of the CQAR, costing TVA
                    an estimated $53,000 to $200,000. The employee retired upon
                    learning he was under investigation. Prosecution was declined
   because the employee had not been required to certify preparation of the coal
   samples. TVA management is considering our recommendations to prevent
   recurrence of this type situation.

TASK FORCES

We continued our support of task forces on health care fraud, environmental crimes,
and terrorism. During this reporting period, as a result of task force activities, an
Indiana based firm that manufactures trailers for the trucking industry pled guilty in
federal court to two counts of violating the Clean Water Act. The company
acknowledged dumping more than 120,000 gallons of a caustic solution in a Scott
County, Tennessee, waterway, causing two children to suffer chemical burns. As part
of the plea agreement, the company agreed to pay a total of $400,000. The investiga-
tion was conducted by the Environmental Crimes Joint Task Force (ECJTF), which is
comprised of members from numerous federal and state agencies.

In another ECJTF case, the defendant company pled guilty to a misdemeanor charge
for releasing diesel fuel from its pipeline into waters of the United States without a
permit. The diesel fuel was discharged when a pipe ruptured. The defendant
remediated the site and agreed to pay a $50,000 fine and $350,000 in restitution for
environmental education and protection and incident response training and equipment.




page 27                                                          April 1 ~ September 30, 2004
                                                                                                                                                                    Investigations




                                                                                          Administrative and Disciplinary Actions
                                                                                                         T o t al = 5 3



                                                                                                  O ra l / W ri t t e n
                                                                                                   W a rn i n g s
                                                                                                         38%                                     Su s p e n s i o n s
                                                                                                                                                        7%

                                                                                                                                                                R es i g n at i o n s /
                                                                 R e e m pl o y m e n t                                                                         R e t i re m e n t s /
                                                                       F l ag g ed                                                                              T e rm i n a t i o n s
                                                                            6%                                                                                           11%
                                                                                                                          C o u n s el i n g /
                                                                                                                          Man ag emen t
                                                                                                                          T e c h n i qu e s
                                                                                                                                38%




                                       Closed Cases by Area
                                            T o t al = 1 6 3

                                                           E co n o mi c
                            A d m i n i s t ra t i o n   D e v e l o pm e n t
                                    11%                       10.5%
             O t h er                                                                 F o s s i l Po w e r
             28%                                                                           21.5%




                        R i v e r Sy s t e m                    T V A N u cl ear
                        O p e ra t i o n s &                        13.5%
                        E n v i ro n m e n t
                              15.5%




                                                                                                                   Hotline Concerns Reported
                                                                                                                      to OIG Investigations
                                                                                                                            T o t al = 3 2
                                                                                                                                                              F o rm e r T V A
                                                                                                            An o n y m o u s
                                                                                                                                                                & F o rm e r
                                                                                                               37.5%
                                                                                                                                                                C o n t ra c t
                                                                                                                                                              E m pl o y e e s
                                                                                                                                                                   15.5%


                                                                    C o n t ra c t
                                                                   E m pl o y e e s
                                                                        3%



                                                                                          T V A E m pl o y e e s                                   G e n e ra l P u b l i c
                                                                                                 19%                                                       25%




TVA Office of the Inspector General                                                                                                                                                       page 28
Inspections



Summary of Representative Inspections

Inspections may be initiated from various sources including: (1) annual project planning,
(2) management requests, (3) audit/investigative referrals, and (4) spin-off reviews
resulting from an ongoing inspection. During this reporting period, we completed eight
inspections which identified over $226,000 in cost savings and opportunities for TVA to
improve program operations.


CONTRACT INSPECTIONS IDENTIFY OVER $226,000 IN COST SAVINGS

During this reporting period, we completed six contract-related inspections which
identified over $226,000 in cost savings and opportunities to improve controls.
Management generally agreed with our findings and has taken or plans to take
corrective action. Highlights of some significant inspections follow.

 An ammonia supplier requested a price increase citing increased freight costs. TVA

   management approved the increase on a provisional basis pending the results of our
   review. Our review determined the supplier did not directly incur additional freight
   costs and could not support the requested increase. In addition, we identified
   overbillings of $204,229 of which over $77,000 was related to billings for additional
   freight costs that were not incurred by the supplier and about $127,000 in other
   various billing errors. TVA management agreed with the findings and has taken
   action to recover the overbilled costs.

 We determined an energy right® contractor engaged in various improper schemes

   against third parties and TVA’s energy right® Heat Pump Plan/Financing Program,
                    which resulted in $22,500 in improper claims. We also (1) found the
                    contractor’s actions were inconsistent with program objectives and
                    did not comply with program requirements, and (2) identified
                    numerous opportunities for improvement in internal controls over
                    implementation of the program and in the written policies. TVA
   management agreed with the findings, identified appropriate corrective actions, and
   withheld payment for the fraudulent claims.




page 29                                                         April 1 ~ September 30, 2004
                                                                           Inspections



GOVERNMENT TRAVEL CARD CONTROLS COULD BE IMPROVED

We reviewed controls related to government travel cards assigned to TVA employees
for official travel-related expenses. Certain charges (airline and rental car) are directly
billed to TVA and shown on the credit card statement as a memo item, while the
employee must pay the remaining charges and request reimbursement from TVA. Our
inspection disclosed controls could be improved by (1) developing more detailed
policies and procedures, (2) implementing a salary offset policy to reduce the costs
associated with charged off accounts, (3) providing direct-charge training for
employees, (4) reinforcing management’s responsibility to review credit card direct
charges, and (5) periodically reevaluating credit limits for appropriateness. TVA
management agreed to implement all the recommendations.




TVA Office of the Inspector General                                                   page 30
Legislation and Regulations



           During this reporting period, legislative areas of interest included matters
           pertaining to the IG community and TVA. We also established a new
           Assistant Inspector General for Administration and Government Relations
           position to better focus our efforts in this area. As noted earlier in this report,
           Ronald Wise is our first AIGAGR. His duties will include developing working
           relationships with congressional members and ensuring we keep them
           informed of our activities and are responsive to their concerns.


THE IG COMMUNITY

The TVA IG, Richard W. Moore, serves on the Legislation Committee for the PCIE. The
overall mission of this Committee is to ensure the PCIE is kept abreast of congressional
matters of interest to the IG community as a whole or which may impact OIG statutory
authority, duties, and organization. The Committee also develops, coordinates, and
represents to Congress official PCIE positions on particular legislative issues. Finally,
the Committee serves as a resource base for the IG community on congressional rules,
operation, and procedures. We shall continue to follow legislative items of interest to
the IG community and work with the PCIE in keeping Congress apprised of our views
on those matters.


TVA

We continued to follow issues of interest to TVA, including federal energy legislation
which included a provision to restructure the TVA Board. We believe the pros
and cons of this proposed legislation are being fully explored, and look
forward to working with both TVA and Congress in these matters. We also
responded to requests for information from members of Congress and their
staffs.




page 31                                                           April 1 ~ September 30, 2004
APPENDICES
Appendix 1



Index of Reporting Requirements Under the Inspector General Act
REPORTING REQUIREMENT                                                                                     PAGE



Section 4(a)(2)   Review of Legislation and Regulations                                                     31


Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                                         10-30


Section 5(a)(2)   Recommendations With Respect to Significant Problems, Abuses, and Deficiencies         10-30


Section 5(a)(3)   Recommendations Described in Previous Semiannual Reports on Which
                  Corrective Action Has Not Been Completed                                           Appendix 4


Section 5(a)(4)   Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions
                  That Have Resulted                                                                 Appendix 5


Section 5(a)(5)   Summary of Instances Where Information Was Refused                                      None
and 6(b)(2)


Section 5(a)(6)   Listing of Audit Reports                                                           Appendix 2


Section 5(a)(7)   Summary of Particularly Significant Reports                                            10-30


Section 5(a)(8)   Status of Management Decisions for Audit Reports Containing Questioned Costs       Appendix 3


Section 5(a)(9)   Status of Management Decisions for Audit Reports Containing Recommendations
                  That Funds Be Put to Better Use                                                    Appendix 3


Section 5(a)(10) Summary of Unresolved Audit Reports Issued Prior to the Beginning of the
                 Reporting Period                                                                         None


Section 5(a)(11) Significant Revised Management Decisions                                                 None


Section 5(a)(12) Significant Management Decisions With Which the Inspector General Disagreed              None


Section 5(a)(13) Information under Federal Financial Management Improvement Act of 1996                   None




page 33                                                                             April 1 ~ September 30, 2004
                                                                               Appendix 2



Audit Reports Issued
AUDIT REPORT
NUMBER                                                QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                      COSTS       COSTS     BETTER USE

CONTRACT

2004-024C
04/28/04         Washington Group                                                $1,471,000

2004-025C
04/28/04         MESA

2004-041C
05/28/04         Midpoint International - Review of
                 Statutory Payments

2003-036C-02
06/04/04         Diamond Power - Cost Compliance

2003-037C
06/04/04         Blue Cross Blue Shield of
                 Tennessee                             $595,290

2003-036C-01
06/21/04         Diamond Power - Cost Compliance        246,734

2004-033C
06/30/04         Audit of G-UB-MK Subcontract
                 No. 1999-001 with Williams
                 Specialty Services

2003-062C
07/12/04         GTSI Corporation                          566

2004-043C
08/13/04         National Inspection & Consultants,
                 Inc. - Preaward Audit

2004-052C
09/10/04         Philadelphia Mixing Solutions -
                 Termination Claim                      165,090

2004-032C
09/20/04         Advatech LLC - Contract No. 18244 -
                 Flue Gas Desulfurization Projects       63,122

2004-057C
09/20/04         Swenson Technology, Inc. -
                 Limited Review of Cost for
                 Contract Termination                    82,075       $8,965

2004-003C-01
09/27/04         Bechtel Power Corporation
                 Engineers-Constructors -
                 Contracts 8471                         602,611       94,069




TVA Office of the Inspector General                                                    page 34
Appendix 2



Audit Reports Issued
AUDIT REPORT
NUMBER                                                QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                      COSTS       COSTS     BETTER USE

F I NA N C I A L
2004-035F
05/14/04       Audit of PriceWaterhouse Cooper’s
               Review of TVA’s 2nd Quarter, FY
               2004 Financial Information

2003-053F-01
06/03/04       Assess Controls for Generation Data
               in Operations Data Store System and
               Web Based Data Entry Page

2004-031F
07/19/04       Bond Offering Circular

2004-046F
08/16/04       Audit of PriceWaterhouse Cooper’s
               Review of TVA’s 3rd Quarter,
               FY 2004 Financial Information

2004-050F
08/18/04       Assess Controls Over Classification,
               Recording, and Disclosing Debt
               Issue and Reacquisition Costs

INFORMATION TECHNOLOGY
2004-013T
05/20/04       Fossil Plant IT Security

2003-053F-02
06/03/04       Operations Data Store Logical
               Security Controls

2003-056T
06/10/04       Pre-Implementation Review of TVA’s
               New Fuelworx Application

2004-004T
07/28/04       Operations Center IT Security

2004-049T
09/13/04       Timeliness of Terminating Passport Access

2004-045T
09/16/04       Federal Information Security Management
               Act Evaluation




page 35                                                              April 1 ~ September 30, 2004
                                                                               Appendix 2



Audit Reports Issued
AUDIT REPORT
NUMBER                                                QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                      COSTS       COSTS     BETTER USE

PERFORMANCE

2003-043P
04/21/04         TVA’s Hearing Conservation Program

2003-009P
06/25/04         Franklin County Combined Cycle Project

2004-040F
07/01/04         Verification of TVA’s Compliance With the
                 Green Pricing Accreditation Program
                 Requirements for Calendar Year 2003

2004-006F
07/13/04         Review of Public Power Institute
                 Performance

2004-010P
08/11/04         Review of TVA’s Workers’ Compensation
                 Claims Process                        $7,886

2004-038F
08/16/04         Concerns Resolution Program - Browns
                 Ferry Nuclear Plant Unit 1 Restart

2004-036F
08/17/04         Concerns Resolution Program - TVA
                 Nuclear 2004

2004-037F
08/24/04         Concerns Resolution Program -
                 Sequoyah Nuclear Plant 2004

2004-011F
09/27/04         Effectiveness of TVA’s Economic
                 Development Loan Fund

2004-014F
09/28/04         TVA’s Hospitality Expenses

TOTAL            34                                   $1,763,374    $103,034    $1,471,000




TVA Office of the Inspector General                                                    page 36
Appendix 3



Audit Reports Issued With Questioned Costs
                                                                                    QUESTIONED COSTS
                                                             NUMBER               TOTAL    UNSUPPORTED




A.   For which no management decision has been
     made by the commencement of the reporting period            3               $3,361,621            $343,898

B.   Which were issued during the reporting period               8               $1,763,374            $103,034

Subtotals of A and B                                            11*             $5,124,995           $446,932

C.   For which a management decision was made during
     the reporting period                                        9               $4,388,578            $343,898

     (i) Dollar value of disallowed costs                        9               $2,948,469            $314,938

     (ii) Dollar value of costs not disallowed                   3               $1,440,109             $28,960

D.   For which no management decision has been made by
     the end of the reporting period                             3                 $736,417            $103,034

E.   For which no management decision was made within
     six months of issuance                                      0                        $0                 $0


* The total number of reports (A+B) differs from the sum of C and D when the same reports contain recommendations
  with and without management decisions.




page 37                                                                         April 1 ~ September 30, 2004
                                                                       Appendix 3



Audit Reports Issued With Recommendations for Better Use of Funds
                                                              NUMBER   DOLLAR VALUE




A.   For which no management decision has been
     made by the commencement of the reporting period           2        $6,103,800

B.   Which were issued during the reporting period              1        $1,471,000

Subtotals of A and B                                            3       $7,574,800

C.   For which a management decision was made during
     the reporting period                                       3        $7,574,800

     (i) Dollar value of costs agreed to by management          3        $7,021,180

     (ii) Dollar value of costs not agreed to by management     1         $553,620

D.   For which no management decision has been made by
     the end of the reporting period                            0               $0

E.   For which no management decision was made within
     six months of issuance                                     0               $0




TVA Office of the Inspector General                                            page 38
Appendix 4



Audit Reports With Corrective Actions Pending
Final corrective actions on recommendations in five contract compliance audits, two operational audits, three financial
audits, and nine IT audits have not been fully implemented; however, all are being implemented in accordance with
currently established milestones.

AUDIT REPORT
NUMBER
AND DATE                DESCRIPTION




2001-064T                Hydro Automation Security-HDCC
12/21/01                 This report contained recommendations regarding physical and logical security of the Hydro
                         Dispatch Control Cell. TVA completed final action on October 12, 2004.

2001-074T                Application Review of Pegasys
01/07/02                 This report contained recommendations regarding facility access control. TVA is reevaluating
                         options for addressing these recommendations.

2002-012T-01             Security Review of Nuclear Facility Access Control Systems-SQN
10/25/02                 This report contained recommendations regarding facility access control. TVA plans to
                         complete final action by January 2005.

2002-017T                Hydro Automation-Dams
06/25/02                 This report included recommendations regarding the physical and logical security of hydro
                         automation systems at seven hydroelectric facilities. TVA completed final action on October 12,
                         2004.

2002-025T                Security of Windows 2000/Windows XP
08/07/02                 This report contained recommendations to strengthen environmental and logical controls of
                         TVA’s implementation of Windows 2000 and Windows XP. TVA management plans to complete
                         final action by February 2005.

2002-075E                Integrity of Selected Fossil Power Data Used in TVA’s Energy Trading Model
03/03/03                 This report included recommendations to improve the integrity of selected fossil data used in
                         TVA’s energy trading decision support model. TVA management plans to complete final action
                         by May 2005.

2003-003C                Page Clearing Contractors
06/17/03                 This report included recommendations to recover ineligible costs. TVA management has
                         reached a settlement agreement with the contractor and is receiving monthly credits for costs
                         determined to have been disallowed. The remaining balance should be collected by
                         December 31, 2004.

2003-004C                A & G Tree Service, Inc.
03/30/04                 This report included recommendations to (1) recover unsupported costs and (2) require the
                         contractor to compensate its employees for underpaid wages. TVA management plans to
                         recover any overbilled costs. Also, TVA is reviewing prevailing wage rates for right-of-way
                         clearing contractors and plans to have this completed by December 31, 2004.

2003-015F                Review of Completed Plant Retirements
07/28/03                 This report contained recommendations to correct completed plant retirement inaccuracies,
                         improve accounting for completed plant retirements, and strengthen management’s controls
                         over retirements processing. TVA management agreed to implement most of our
                         recommendations and expects to complete final action by December 31, 2004.




page 39                                                                               April 1 ~ September 30, 2004
                                                                                               Appendix 4



Audit Reports With Corrective Actions Pending
AUDIT REPORT
NUMBER
AND DATE            DESCRIPTION




2003-019F-04        TVAN Overhead Recovery
01/29/04            This report contained recommendations to ensure TVAN’s (1) organizational overhead rate for
                    external business is calculated on an annual basis, (2) labor markup rate for external business
                    includes fringe benefits and indirect labor costs, (3) fringe benefit rate for internal services
                    charged to external business is adjusted to reflect the estimated straight-time labor component,
                    and (4) overhead rates are applied to external business costs in a manner consistent with the
                    rate calculation method. TVA management agreed to implement our recommendations and is
                    currently working on the process for accurate calculation and proper application of indirect cost
                    recovery rates.

2003-024F           Review of TVA’s Accounts Receivable and the Allowance for Doubtful Accounts
11/18/03            This report contained recommendations to (1) develop, document, and implement guidelines for
                    estimating the allowance for doubtful accounts, (2) ensure reconciliation of the general ledger
                    and subsidiary accounts include documentation of corrections and adjustments made during
                    power and nonpower reconciliations and management review and approval of all nonpower
                    adjusting journal entries, (3) make modifications to the write-off process to ensure invoices are
                    written off in a timely manner, (4) develop and implement procedures to track written-off
                    accounts for future collection efforts or business decisions, (5) ensure accounts are written off in
                    accordance with policy, and (6) review and update Accounting Procedure 25 to clarify the
                    criteria for referring past due customers to the Office of General Counsel. TVA management
                    agreed to implement our recommendations and has transitioned the responsibilities to a new
                    group. Processes and procedures will be evaluated and updated in FY 2005, and a new
                    system is planned.

2003-044F           Tritium Program - Department of Energy (DOE) and TVA Interagency Agreement
                    No. DE AI02 00DP00315
01/29/04            This report contained a recommendation that DOE and TVA take appropriate corrective actions
                    to ensure that TVA’s costs are fully reimbursed as required by the interagency agreement and
                    the Economy Act. TVA management agreed with our recommendations and began proper
                    application of improved overhead rates. TVA management intends to consider all of the
                    adjustment amounts when certain fixed payments by DOE to TVA related to foreign equipment
                    are discussed in FY 2010.

2003-045C           Three Rivers Contracting
12/02/03            This report included recommendations to require the contractor to (1) establish appropriate
                    documentation and approval processes and (2) compensate its employees for underpaid
                    wages. TVA management has required the contractor to implement documentation standards.
                    Also, TVA is reviewing prevailing wage rates for right-of-way clearing contractors and plans to
                    have this completed by December 31, 2004.

2003-046C           Southeastern Construction & Equipment Company, LLC
12/02/03            This report included recommendations to recover ineligible costs. TVA management is working
                    with the Office of General Counsel relative to options available for recovery since TVA has not
                    had a contractual relationship with the contractor since July 2003, and there are no accounts
                    payable available to withhold funds due TVA.

2003-049T           Bill Out Subsystem
11/18/03            This report included a recommendation to ensure adequate annual disaster recovery testing.
                    TVA management is implementing corrective action with an expected completion date of
                    September 2005.




TVA Office of the Inspector General                                                                          page 40
Appendix 4



Audit Reports With Corrective Actions Pending
AUDIT REPORT
NUMBER
AND DATE       DESCRIPTION




2003-054T      Hydro Plant IT Security
11/13/03       This report included recommendations to strengthen logical, physical, and management
               controls over IT assets at a hydroelectric facility. TVA management has completed a site
               emergency response plan and addressed safety issues. Additional efforts are in progress to
               mitigate remaining control weaknesses with an expected completion date of December 2006.

2003-067P      TVA’s Compliance With the National Energy Conservation Policy Act
02/02/04       This report contained recommendations to continue to evaluate opportunities to reduce energy
               consumption including (1) promoting sustainable building design when appropriate and
               (2) determining whether TVA can implement energy reduction requirements in a lease of TVA
               space to a private company. Management actions should be completed by early FY 2005.

2003-068T      Substation IT Security
01/22/04       This report included recommendations to strengthen logical, physical, and management
               controls over IT assets at a substation facility. TVA management is implementing planned
               remediation actions, with completion targeted for December 2006.

2004-007T      Fossil Plant DCS IT Security
01/26/04       This report included recommendations to strengthen logical and physical controls over control
               systems at a fossil generation facility. TVA management is implementing planned remediation
               actions which are expected to be completed by December 2006.




page 41                                                                   April 1 ~ September 30, 2004
                                                         Appendix 5



Investigative Referrals and Prosecutive Results*


Referrals

          Subjects Referred to U.S. Attorneys              20
          Subjects Referred to State/Local Authorities     5


Results

          Subjects Indicted                                9
          Subjects Convicted                               3
          Referrals Declined                               12




* These numbers include task force activities.




TVA Office of the Inspector General                             page 42
Highlights



                                               SEPT 30,    MAR 31,   SEPT 30,       MAR 31,     SEPT 30,
                                                 2004       2004       2003          2003         2002


ANNUAL BUDGET (In Millions of Dollars)           $8.8        $8.8      $8.5           $8.5        $8.0
CURRENT STAFFING                                  82          78        78             84          87

AUDITS
AUDITS IN PROGRESS
Carried Forward                                    29*        37        38              35*         33
Started                                            38         36        41              41          44
Canceled                                            (5)        (5)       (8)             (4)         (4)
Completed                                         (34)       (39)      (34)            (34)        (40)
In Progress at End of Reporting Period             28         29        37              38          33

AUDIT RESULTS (Thousands)
Questioned Costs                               $1,763     $14,127    $1,908         $1,125      $3,816
Disallowed by TVA                               2,948      10,453       137            989         911
Recovered by TVA                                1,113         697     3,499            221         387

Funds to Be Put to Better Use                  $1,471     $11,904    $6,951        $34,755     $52,037
Agreed to by TVA                                7,021       5,800     6,551         37,969      44,944
Realized by TVA                                 7,196      11,708         0         38,172      16,014

OTHER AUDIT-RELATED PROJECTS
Completed                                           8         30         15             36          16
Cost Savings Identified/Realized (Thousands)       $0          0          0              0           0


I N V E S T I G AT I O N S * *

INVESTIGATION CASELOAD
Opened                                            118        162       100             87           78
Closed                                            163         76        92             75           89
In Progress at End of Reporting Period            176        221       135            127          115

INVESTIGATIVE RESULTS (Thousands)
Recoveries                                      $460       $3,412     $100           $879         $961
Savings                                          447.7        863      875            366            8
Fines/Penalties                                  451.6         10      421             56           86

ADMINISTRATIVE AND
DISCIPLINARY ACTIONS
Recommended (# of Cases)                           14          8         21             15          18
Actions Taken (# of Subjects)                      30         75         24             16           7
Counseling/Management
   Techniques Employed (# of Cases)                16         13         21             16          24

PROSECUTIVE ACTIVITIES (# of Subjects)
Referred                                           25         17         63             12          19
Indicted                                            9          3          4              6           9
Convicted                                           3          3         10              4           4

INSPECTIONS
Completed                                       8
Cost Savings Identified/Realized (Thousands) $226

 * Adjusted from previous reporting period.
** These numbers include task force activities.




page 43                                                                        April 1 ~ September 30, 2004
                     Tennessee Valley Authority
                    Office of the Inspector General



Help Track Down Fraud,
Waste, and Abuse at TVA




     Contact the OIG Hotline
        1-800-323-3835
 To report:
 •   Contract or computer fraud          •    Theft or misuse of TVA
 •   Computer misuse or crimes                property
 •   False statements or false           •    Management reprisal
     claims                              •    Workers’ compensation fraud
 •   Irregularities in financial         •    Bribery, kickbacks, or
     reporting                                gratuities
 •   Conflicts of interest and other     •    Health care fraud
     ethics violations                   •    Environmental, health, and
 •   Travel fraud                             safety violations


           For additional information, see our Web site at oig.tva.gov
OFFICE OF THE INSPECTOR GENERAL OF THE TENNESSEE VALLEY AUTHORITY
                     400 WEST SUMMIT HILL DRIVE
                   KNOXVILLE, TENNESSEE 37902-1401
